OIG Inspections Report I-96-11
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
INSPECTION OF SAFEGUARDING GRAND JURY MATERIAL
AT THE UNITED STATES ATTORNEYS' OFFICES
August 1996
Report Number I-96-11
TABLE OF CONTENTS
EXECUTIVE DIGEST
INTRODUCTION
Scope and Methodology
Background
The Purpose of Rule 6(e)
Department of Justice Order 2600.4
Procurement of Court Reporter
Services
RESULTS OF THE INSPECTION
Court Reporting Firms
Court Reporter Personnel Clearances
Translator and Commercial Courier
Services
Security of Grand
Jury Material at Court Reporting Firms
Other Court Reporting Options
Recommendations
United States Attorneys' Offices
Access to Grand Jury Material at
the USAOs
Storage of Grand Jury Material
at the USAOs
Closed Cases
Recommendations
APPENDIX I USAOs with Current Clearances for all Contract Grand
Jury Court Reporter Personnel
APPENDIX II USAOs with Contract Grand Jury Court Reporter
Personnel Never Cleared
APPENDIX III USAOs with Expired Clearances for Contract Grand
Jury Court Reporter Personnel
APPENDIX IV Abbreviations
APPENDIX V Executive Office for United States Attorneys' Response to the Draft Report -
Not included in this hypertext version.
APPENDIX VI Justice Management Division's Response to the Draft
Report
APPENDIX VII Office of the Inspector General's Analysis of
Managements' Responses
EXECUTIVE DIGEST
Pursuant to Rule 6(e) of the Federal Rules of Criminal Procedure for the United States
District Courts, grand jury proceedings are subject to certain rules regarding secrecy.
The Department of Justice's (Department/DOJ) rules for securing grand jury material and
obtaining clearances for private grand jury court reporter personnel are contained in
Department of Justice Order 2600.4, Safeguarding Grand Jury Information, dated August 27,
1980. The Order requires grand jury personnel to receive a security clearance before they
are given access to grand jury material. The Order also specifies security and storage
requirements for grand jury material.
During our inspection, we assessed whether Federal grand jury information has been
properly safeguarded by the United States Attorneys' Offices (USAO). We determined whether
grand jury court reporters, with whom United States Attorneys have contracted, have
obtained the appropriate security clearances and whether the firms properly have
safeguarded grand jury material. We also evaluated how access to and handling of grand
jury information has been controlled by the United States Attorneys at their
offices.
For our review, we contacted all 94 USAOs to obtain detailed information on grand jury
court reporting services. We examined the security clearances for 1,421 contracted court
reporter personnel in all 247 firms used by the USAOs. We also performed site visits at
six district and one branch office of the United States Attorneys as well as at six court
reporting firms.
We found numerous problems related to grand jury court reporting firms. We determined
that court reporter personnel clearances were inadequate at 60 percent of the USAOs. These
USAOs used court reporter personnel who never had background investigations, had expired
clearances, or both. In addition, several USAOs had incomplete or no records regarding
court reporter personnel clearances. We concluded that United States Attorneys should
provide better oversight for grand jury court reporter personnel security clearances and
that DOJ Order 2600.4 needs clarification.
We also determined that the physical security of grand jury material was insufficient
at two of the six grand jury court reporting firms visited during the inspection. These
two firms allowed court reporters to take grand jury material home. Also, one of the two
firms did not have boxes of grand jury material adequately stored as required in the
Order. We determined that some United States Attorneys have not ensured that the court
reporting firms are meeting security requirements for grand jury material.
We found several inadequacies related to the security of grand jury material at the
USAOs. Access to grand jury material was not limited to authorized employees. We found the
physical security of the grand jury material at the USAOs to be inadequate at two of the
seven sites visited. Records personnel at one USAO had stored 31 boxes containing grand
jury material in a hallway accessible to the public, and the boxes were marked with grand
jury numbers. At another site, tapes of grand jury hearings were stored in open boxes in a
library closet, and the boxes were neither sealed nor secured in a locked file cabinet or
office.
Finally, we found no consistency among the USAOs in securing grand jury material
relating to closed cases, and we determined that there are no guidelines that address this
issue.
INTRODUCTION
The purpose of the inspection was to determine whether Federal grand jury information
has been properly safeguarded by the United States Attorneys' Offices (USAO). The
objectives of the inspection were to determine whether grand jury court reporters, with
whom United States Attorneys have contracted, have obtained the appropriate security
clearances and to determine how access to and handling of grand jury information has been
controlled by the United States Attorneys at their offices.
Grand jury proceedings serve an important function in criminal prosecution. Grand
juries conduct investigations and examine evidence against persons to determine whether it
is sufficient to warrant indictment. In this manner, grand jury proceedings set the
prosecutorial process in motion. During fiscal years 1994 and 1995, the 94 USAOs conducted
a total of 43,570 grand jury proceedings.
Federal grand jury proceedings involve United States Attorneys, witnesses, court
reporters, and jurors, and these proceedings are subject to certain rules regarding
secrecy. USAOs are required to conform to specific security regulations for safeguarding
grand jury information. USAOs hire contractors to perform court reporting and
transcription services for their offices. Grand jury court reporters stenographically or
electronically record all proceedings, except when the grand jury is deliberating or
voting. The court reporters then prepare transcripts from the recording or reporter's
notes and provide them to the USAOs. During fiscal years 1994 and 1995, the 94 USAOs spent
over $9.9 million on grand jury court reporter related services. Court reporter personnel
must receive clearance from the Department of Justice's (Department/DOJ) Security and
Emergency Planning Staff (SEPS) prior to handling grand jury material. The background
investigation for court reporter personnel security clearances consists of a name and
fingerprint check by the Federal Bureau of Investigation (FBI).
SCOPE AND METHODOLOGY
We reviewed rules and regulations regarding grand jury proceedings, statistical
reports, budget data, contracts and blanket purchase agreements, security clearance data,
and prior Executive Office for United States Attorneys (EOUSA) and SEPS reports. Field
work included site visits to seven United States Attorneys' offices: the District of
Delaware, the Eastern District of Virginia, the Southern District of Alabama, the Western
District of Washington, the District of Columbia, the District of Maryland, and the
Greenbelt Branch Office of the District of Maryland. At each USAO, we interviewed the
Administrative Officer, the First Assistant United States Attorney or Criminal Division
Chief, the District Office Security Manager, the Grand Jury Coordinator, and several
Criminal Division Assistant United States Attorneys (AUSA). In larger offices, we also
interviewed the Docket Clerk or Records Manager, the Personnel Security Officer, and
several Criminal Division Secretaries. We toured each office and observed the process of
securing grand jury information for both current and inactive cases. We conducted over 50
interviews at the USAOs.
In addition, the inspectors performed site visits at 6 court reporting firms and
contacted, by telephone and facsimile, the remaining 241 firms used by the USAOs for grand
jury work. At each court reporting firm visited, we interviewed the office manager and
several grand jury court reporters. We also toured the facilities and observed physical
security, storage capabilities, and transcribing and delivery processes. We conducted over
300 telephone interviews of the court reporting firms to obtain the status of court
reporter personnel security clearances.
BACKGROUND
The Purpose of Rule 6(e)
Rule 6(e) of the Federal Rules of Criminal Procedure for the United States District
Courts codifies the traditional rule of grand jury secrecy by prohibiting members of the
grand jury, government attorneys and their authorized assistants, and other grand jury
personnel from disclosing matters occurring before the grand jury, except as otherwise
authorized by the Rule. Grand jury secrecy is vital to the investigative function of the
grand jury. It serves several distinct interests, such as to encourage witnesses to come
forward and testify freely and honestly, to minimize the risks that prospective defendants
will flee or use corrupt means to thwart investigations, to safeguard the grand jurors
themselves and the proceedings from extraneous pressures and influences, and to protect
accused persons who are ultimately exonerated from unfavorable publicity.
The reasons for grand jury secrecy are particularly compelling while an investigation
is ongoing. While these reasons may lose some of their force after the grand jury
proceedings have been concluded, grand jury secrecy may never be breached, except as
provided for by the Rule, no matter what the circumstances.
The reporter who takes and transcribes the evidence is permitted to be present during
grand jury sessions, except when the grand jury is deliberating or voting. The Rule
specifically imposes an obligation of secrecy on the reporter. Furthermore, the Rule
explicitly recognizes that other persons such as stenographers, interpreters, and typists
also have an obligation of secrecy.
The Rule permits disclosure of grand jury information to attorneys for the government
working on criminal matters. The Rule also stipulates that grand jury information may be
disclosed to government employees who are assisting attorneys in the investigation and
prosecution of criminal violations. Included in the category of government employees are
criminal investigators and members of the prosecution support staff such as secretaries,
paralegals, and law clerks.
Department of Justice Order 2600.4
Department of Justice Order 2600.4, Safeguarding Grand Jury Information, dated
August 27, 1980, establishes the procedures for all Department components for
requesting, processing, and adjudicating personnel security clearances of Federal grand
jury court reporter personnel and establishes the physical security standards for
protecting grand jury information. The Order requires that grand jury court reporter
personnel obtain security clearances prior to having access to grand jury information. The
Order defines grand jury court reporter personnel as "a stenographer, an operator of
a recording device, a typist who transcribes recorded testimony, an interpreter or any
other person who is employed or contracted to record and transcribe grand jury
testimony."
The Order further states that each United States Attorney who uses grand jury court
reporter personnel shall establish procedures to ensure that requests for grand jury court
reporter personnel clearances are submitted to the Department Security Officer (DSO) for
clearance approval, ensure that only grand jury court reporter personnel who have been
approved by the DSO have access to grand jury information, and ensure that grand jury
information is protected against unauthorized disclosure.
To physically protect grand jury information from unauthorized disclosure, the Order
dictates requirements for physical security and storage of grand jury information at the
USAOs. The Order charges that Department employees will safeguard all grand jury
information that comes into their possession in accordance with these security
requirements.
Procurement of Court Reporter
Services
Court reporter services are obtained through contracts or small purchase procedures
depending upon the dollar amount of the services required. The Procurement Services Staff
(PSS) of the Justice Management Division (JMD) is responsible for the procurement when a
contract is used. PSS provides assistance to the USAOs when small purchase procedures are
used. In either case, PSS distributes a standard set of security requirements to the USAOs
and the court reporting firms. The security requirements include procedures for obtaining
clearances for court reporter personnel and securing grand jury information. It is the
responsibility of each USAO's Contracting Officer's Technical Representative or the United
States Attorney's designee to ensure the court reporting firm complies with the security
requirements.
RESULTS OF THE INSPECTION
COURT REPORTING FIRMS
Court Reporter Personnel Clearances
As stated in the Order, the Department requires that favorable personnel security
clearances be granted to grand jury court reporter personnel before they have access to
grand jury information. The Order further states that clearances to perform grand jury
work are effective for five years. At the end of five years, the USAOs must resubmit a
request for clearance.
The Order defines grand jury court reporter personnel as a stenographer, an operator of
a recording device, a typist who transcribes recorded testimony, an interpreter or any
other person who is employed or contracted to record and transcribe grand jury testimony.
Although not specifically mentioned in the Order, other court reporting firm personnel,
including office support staff, office couriers, and translators, have access to grand
jury material and should be cleared. EOUSA officials stated that because the Order is
unclear some USAOs have interpreted the Order's definition of grand jury reporter
personnel to include only those personnel specifically mentioned in the Order and may not
have had all court reporting personnel cleared.
Clearances for all personnel, both Department employees and contractors, are processed
through SEPS' Personnel Security Group. Court reporter personnel are required to complete
Form USA-168, Request for Grand Jury Reporter Personnel Clearance Action, and Form FD-258,
Fingerprint Card, for the USAO, who sends the forms to SEPS. SEPS then forwards the
information to the FBI for a name and fingerprint check. The FBI does not charge for the
name and fingerprint checks. The results are reported to SEPS for final adjudication or
further investigation.
The FBI periodically uncovers derogatory information during the name and fingerprint
checks of potential court reporter personnel. When such information is found and reported
to SEPS, SEPS contacts the USAO to determine whether the United States Attorney wants to
pursue the clearance process for the individual. We determined that the most common types
of derogatory information were arrest records for robbery, burglary, and handgun
violations. Based on our interviews, we found that most USAOs, working in conjunction with
the court reporting firms, declined to pursue the clearance for these individuals with
derogatory information.
We obtained the names of the 247 court reporting firms used by the 94 USAOs. We
contacted each court reporting firm and obtained lists of all employees who have access to
grand jury information, totaling 1,421 names. That list was compared with grand jury court
reporter personnel clearance data, dated January 29, 1996, obtained from SEPS.
Of the 94 USAOs we reviewed, we found that all USAOs had at least some grand jury court
reporter personnel with current security clearances, indicating that the USAOs were aware
of the Order's requirements. However, we found that 60 percent of USAOs used some court
reporter personnel who were never cleared, had expired clearances, or both. The following
table presents the status of USAOs with problems regarding grand jury court reporter
personnel clearances:
Status
Number of USAOs
Percent of USAOs
Number of USAOs whose grand
jury court reporter personnel did not have current clearances
56
60
Number of USAOs whose grand
jury court reporter personnel had current clearances
38A
40
Total
94
100
A See Appendix I for a list of the 38 USAOs.
Of the 60 percent of USAOs with problems regarding grand jury court reporter
personnel clearances, we found the following:
Ninety-two court reporter personnel in 28 USAOs had never been cleared by SEPS. [See
Appendix II for a list of the 28 USAOs.] Some had been working on grand jury proceedings
for as long as
15 years. Of these 92 uncleared employees, some were the court reporters recording
grand jury proceedings. The remaining uncleared employees were court reporter office staff
such as typists, transcribers, editors, office couriers, billing clerks, and office
managers who had access to grand jury material at some time during the production of grand
jury transcripts. EOUSA believes that about 25 percent of these USAOs had not obtained
clearances for some support staff such as couriers because the Order did not clearly
require it.
One hundred ninety-two court reporter personnel in 40 USAOs had clearances that were
more than five years old and had not been updated. [See Appendix III for a list of the 40
USAOs.] Some clearances had been expired for as long as 14 years.
The following table identifies the breakdown of problems with grand
jury court reporter personnel clearances:
Grand Jury Court Reporter
Personnel without Current Clearances
Number of
USAOsA
Percent of
USAOs
Number of Court Reporter
Personnel
Never cleared
28
30
92
Outdated clearances
40
43
192
A Some USAOs counted in both categories.
In addition, we found that 11 of the USAOs with problems related to grand jury court
reporter personnel clearances also had incomplete or no records pertaining to these
clearances. Two USAOs used the same firm for grand jury court reporting services. Each
USAO assumed that the other maintained records regarding court reporter personnel
clearances. However, neither USAO had complete records or could positively certify that
the court reporter personnel used for its grand jury proceedings were cleared.
Overall, we determined that employees of the court reporting firms who worked with
grand jury information were not cleared for several reasons:
Administrative Officers were not following the Order which explicitly requires that
court reporter personnel be cleared prior to handling grand jury material and that their
clearances be updated every five years.
Sections of the Order were unclear. Consequently, several Administrative Officers
did not interpret the Order's definition of persons to be cleared to include court
reporter office support staff who handle grand jury information.
The USAOs did not adequately monitor the status of court reporter personnel
clearances. In some cases, the USAOs did not keep sufficient records of court reporter
personnel's original clearance dates and therefore did not initiate clearance update
procedures within five years.
Turnover in personnel at USAOs has resulted in a lack of continuity in record
keeping. Consequently, new USAO staff were unaware of clearance requirements.
In addition, court reporting firms did not follow the guidance provided by PSS.
Court reporting firms often substituted new hires who were not cleared instead of using
cleared court reporter personnel to work on grand jury proceedings. Also, the head of one
court reporting firm stated that if the Department gave her a clearance, then she should
be trusted to hire acceptable employees without clearing them for grand jury work.
Given the magnitude of the problem at the USAOs, we believe the United States
Attorneys should ensure that court reporter personnel clearances are monitored more
closely. Failure of the United States Attorneys to provide such oversight could result in
various threats to the integrity of the grand jury system, including using court reporter
personnel with criminal backgrounds who could disclose grand jury information to persons
being investigated.
Translator and Commercial
Courier Services
The Order also requires that translators receive security clearances to work on grand
jury proceedings. We found that several USAOs used translators who were not cleared for
grand jury proceedings. Translators used were primarily those certified for language
ability by the Administrative Office of the United States Courts (AOUSC). These
translators were not required by AOUSC to undergo any background check, but they did take
the secrecy oath upon entering the grand jury proceeding. The United States Attorneys
should ensure that translators receive security clearances for grand jury work, as
required by the Order.
The Order states that grand jury material may be transmitted personally by official
couriers and messengers. However, the Order does not define "official couriers and
messengers" and does not specify security clearance requirements for either. We
determined that several court reporting firms used commercial courier services to deliver
grand jury transcripts to the USAOs and that their employees have not been cleared by
SEPS. We believe uncleared commercial courier service employees who handle grand jury
material are a potential security risk, although it may be a risk the Department is
prepared to take rather than require additional administrative oversight by the United
States Attorneys. SEPS should define the security clearance requirements for commercial
courier services. In addition, the United States Attorneys should ensure that all measures
are taken to adequately safeguard grand jury material when commercial courier services are
used.
Security of
Grand Jury Material at Court Reporting Firms
According to the Order, it is the responsibility of each United States Attorney who
uses grand jury court reporter personnel to ensure that grand jury information is
protected from unauthorized disclosure. The Order states that "As a minimum, when not
in use, grand jury information shall be locked in a lockbar file cabinet [ A lockbar file
cabinet is a steel file cabinet equipped with a steel bar which secures the drawers and is
locked with a General Services Administration three position, changeable combination
padlock.] secured with a General Services Administration approved combination lock, or
their equivalent." These storage requirements apply not only at the USAO, but also at
the court reporting firms' offices.
We visited the court reporting firms used by the USAOs where field work was performed.
During the interviews and tours of the facilities, we found that one court reporting firm
used by two USAOs had numerous problems related to the security of grand jury material:
Boxes of grand jury audio tapes labeled with witness name, case number, date, and
attorney name were sitting in the back room of the firm. The boxes were sealed but not
stored in a safe or locked room of the office and were accessible to any office staff or
visitors.
The court reporting firm could not account for the transfer of grand jury tapes and
notes to one of the USAOs for 1991. We found that the firm had records of forwarding grand
jury material to the USAO for 1989 and 1990, and grand jury material was retained at the
company for the years 1992 through 1995. However, the firm could not produce any
documentation for grand jury material for the year 1991. During the time of our review, we
found that the administrative staff at the USAO could not locate the grand jury material
for 1991 or any related records.
This firm's court reporters record all grand jury proceedings only on audio tape. After
the hearing, the court reporters take the audio tapes home instead of securing them at the
USAO or the court reporting firm. In addition to the audio tapes of the hearings, there
are notes identifying the witness, attorney, case, date, and time which are kept in the
court reporter's possession.
At another USAO, we found that some of the court reporters for one of the court
reporting firms used by the office transcribed as well as printed grand jury material at
home on their own personal computers.
The Order states that in most instances, transcribing and storing grand jury
information should occur on the premises of the Department. The Order considers grand jury
information given to cleared court reporter personnel still under the control of the
United States Attorney, provided that physical security measures at the court reporting
firm are in compliance with the Order. Although taking grand jury information home is not
specifically addressed in the Order, we believe doing so removes the information from the
direct control of the United States Attorney. Furthermore, when court reporter personnel
take the material home, the material is then vulnerable to unauthorized access. Because we
found that grand jury material was maintained at various locations, the USAO must be
particularly sensitive to ensuring that the court reporting firm complies with the
appropriate methods for safeguarding grand jury information.
We determined that several of the USAOs visited were not conducting site visits of the
court reporting firms to ensure that the firms were adhering to security requirements. One
Administrative Officer did not believe it was the USAO's responsibility to ensure that the
vendor was complying with the security requirements of the district's contract. The Order
requires that the contractor comply with security requirements for safeguarding grand jury
information. We believe regular site visits by the Contracting Officer's Technical
Representative or the United States Attorney's designee are necessary to verify that grand
jury information is adequately safeguarded.
Although we found several instances of violations during our site visits, we also
observed some commendable practices:
The District of Columbia provided office space for grand jury transcription in the
building where grand jury proceedings are held. This practice resulted in proper storage
of and control of access to grand jury material.
Although several court reporting firms in the Southern District of Alabama, the
District of Columbia, and the Western District of Washington had numerous court reporters
cleared for grand jury work, these firms consistently used only one or two reporters for
grand jury proceedings. This practice minimized the risk of access to grand jury material
by many individuals.
Security of grand jury material at the court reporting firms is critical because the
firms do not work on grand jury material exclusively. Consequently, grand jury material
could be inadvertently disclosed to unauthorized personnel. Therefore, we believe each
USAO should review the firms' practices for safeguarding grand jury information.
Other Court Reporting Options
Given the possibility of security violations occurring when private contractors are
used for grand jury court reporting, one USAO had an alternative method of obtaining court
reporter services. The USAO hired its own court reporter approximately five years ago. The
EOUSA approved the position based on the estimated cost savings. Outside court reporting
firms are only used for grand jury proceedings when the USAO employee is not available.
The USAO cited improved security of grand jury information. Because the court reporter is
an employee of the USAO, all transcription of grand jury information is completed and
stored at the USAO.
Based on the experience of this USAO, we believe this practice could decrease the
likelihood of grand jury security violations. In addition, adoption of this practice may
result in cost savings for the USAOs, especially those with high volumes of grand jury
proceedings.
We suggest that each USAO consider the option of hiring a full-time grand jury court
reporter if cost analyses show these services can be obtained in a more cost effective
manner.
RECOMMENDATIONS
The Inspections Division recommends that the Director, Executive Office for United
States Attorneys:
1. Instruct the United States Attorneys to ensure that all court reporter personnel,
including court reporters, office support staff, office couriers, and translators, who
have access to grand jury material have proper security clearances and that updates are
performed as required by DOJ Order 2600.4.
2. Instruct the United States Attorneys to maintain complete and accurate records
for clearances of grand jury court reporter personnel.
3. Instruct the United States Attorneys to conduct site visits annually of all
facilities used by contract grand jury court reporters and to ensure that physical and
information security requirements are met.
The Inspections Division recommends that the Assistant Attorney General for
Administration:
4. Instruct the DSO to update DOJ Order 2600.4 to include a definition of
"official couriers and messengers" and to specify the security clearance
requirements for couriers who handle grand jury material.
UNITED STATES ATTORNEYS' OFFICES
Access to Grand Jury
Material at the USAOs
The Rule states that disclosure of grand jury information to government employees is
permitted only when necessary to assist in the prosecution of criminal cases. Therefore,
access to grand jury material at the USAOs is limited to the United States Attorney;
AUSAs; the prosecution support staff, including secretaries, paralegals, and law clerks;
and criminal investigators working with prosecutors.
Although the Rule enumerates which government employees may have access to grand jury
material, the Order does not. The Order states that Department employees will safeguard
all grand jury information under their custody in accordance with the standards
established in the Order. We believe that the Order is unclear to the USAOs and that the
Order should explicitly state which Department employees may have access to grand jury
information.
During our site visits at the USAOs, we found that access to grand jury material was
not limited to those employees involved directly with the case:
At several USAOs, grand jury information was stored in case jackets in unlocked
cabinets in the hall, accessible to both criminal and civil USAO staff as well as
unescorted visitors. We observed unescorted visitors at these USAOs.
USAO support staff delivered grand jury transcripts to AUSAs' interoffice mailboxes in
several USAOs. The copies of the transcripts were not safeguarded from access by
unauthorized USAO staff or unescorted visitors.
The site visits also revealed the following praiseworthy practices that prevented
access to grand jury information by unauthorized USAO personnel and visitors:
At the Southern District of Alabama, only criminal division AUSAs and the Grand Jury
Coordinator had access to grand jury transcripts. The Grand Jury Coordinator acted as a
librarian for the material, and all grand jury material was stored in a vault until used
for trial preparation by the AUSAs.
At the District of Delaware, access to grand jury transcripts was controlled by the
Grand Jury Coordinator and Lead Criminal Secretary. Once the case was closed, copies of
grand jury information were secured in a grand jury room.
While the Rule addresses access to grand jury material by government employees, the
Order does not specify which government employees are authorized to obtain access to grand
jury material. We believe the Order should supplement the requirements of the Rule and
address access to grand jury material by government employees. Addressing government
employee access to grand jury material is critical because unauthorized employees could
obtain access to grand jury material for the more than 22,000 grand jury proceedings
conducted each year.
Storage of Grand Jury
Material at the USAOs
The Order specifies that during use, all grand jury information shall be "placed
in storage containers or otherwise protected when persons who should not have access are
present." In addition, the Order requires that grand jury information should be
"Returned to storage containers as soon as practical after use." Storage
containers should be, as a minimum, "a lockbar file cabinet secured with a General
Services Administration approved combination lock, or their [sic] equivalent."
Our site visits at the USAOs revealed the following:
One district office had 31 boxes of grand jury material stored in a basement hallway.
The hallway was accessible to anyone who came into the public building. Thirty boxes were
sealed with tape and labeled with the grand jury numbers and court reporters' initials.
One box was open and contained envelopes with computer diskettes and court reporters'
notes. Several times during our review, we examined the hallway and boxes without being
challenged by any USAO staff.
At one USAO, audio tapes of grand jury hearings were stored in a closet in an office
located in the USAO library. The boxes were labeled as grand jury material and contained
tapes of grand jury testimony taken in 1989 and 1990 by the court reporting firm. These
tapes were wrapped in papers that indicated the witness name, case name and number, date
of grand jury hearing, and attorney name. The boxes of tapes were neither sealed nor
secured in a locked file cabinet or office.
We discussed storage requirements for grand jury material with the Regional Security
Specialist at one USAO. He indicated that it is impractical for USAOs to store grand jury
material for active cases in a lockbar file cabinet. He also stated that the Order is
outdated and does not reflect current security precautions already in place at the USAOs.
He believed the combination of access control methods [Access control methods include
security officers, visitor logs, visitor badges, visitor escorts, keypad entry systems,
locking offices, and locking file cabinets.] at the USAO simulated the environment of the
storage container required by the Order. Several AUSAs also believed that similar access
control practices in their offices met the minimum security requirements set forth in the
Order.
We agree with the USAOs' belief that it is impractical for the USAOs to lock up active
grand jury material in a lockbar file cabinet. We believe grand jury material can be
protected from unauthorized access through the use of locked file cabinets, locked
offices, and visitor access controls. While we found that the USAOs had a combination of
access control methods available that could adequately safeguard grand jury material, they
were not employing the practices consistently. Therefore, we are concerned that the USAOs
are not sufficiently limiting access to grand jury material from unauthorized USAO staff
and visitors.
Closed Cases
Upon a case's completion, AUSAs prepare their cases for transfer to closed case file
status. After a designated period of time as determined by the AUSA, the case is sent to
the Federal Records Center. We found that there were no regulations that specifically
addressed grand jury material in closed case files or case files being prepared to be sent
to the Federal Records Center. There were striking inconsistent practices regarding the
storage and disposal of grand jury information for closed cases; sometimes these
inconsistent practices occurred within the same USAO.
We interviewed over 20 AUSAs at the 7 sites visited and found the following:
Grand jury transcripts were removed and shredded before cases were closed and sent to
the Federal Records Center.
Grand jury transcripts were placed in sealed envelopes and then into the case jackets.
Entire files were sent to the Federal Records Center.
Grand jury transcripts were placed into the case jackets but were not in sealed
envelopes. Entire files were sent to the Federal Records Center.
Grand jury material was separated from case jackets and was sent to the Federal Records
Center in separate boxes from the case jackets.
Grand jury material was pulled out and put into a grand jury room when files were
closed. The grand jury material was then shredded after three years.
Because there are no guidelines that address grand jury material in closed case files,
we had no basis on which to determine whether grand jury information in closed cases was
adequately safeguarded. We believe EOUSA must provide guidelines that address grand jury
material in closed cases because the lack of procedures leaves grand jury material
vulnerable to unauthorized access and disclosure.
RECOMMENDATIONS
The Inspections Division recommends that the Assistant Attorney General for
Administration:
5. Instruct the DSO to update the Order to specify which government employees are
authorized to have access to grand jury material.
6. Instruct the DSO to update the Order regarding storage requirements of grand jury
material to reflect current physical security practices at the USAOs.
The Inspections Division recommends that the Director, Executive Office for United
States Attorneys:
7. Instruct the United States Attorneys to limit access to grand jury information to
only those persons authorized as provided in the Rule.
8. Provide standardized guidelines to the United States Attorneys regarding storage
and disposal practices for grand jury information in closed cases.
APPENDIX I
USAOS WITH CURRENT CLEARANCES FOR ALL CONTRACT
GRAND JURY COURT REPORTER PERSONNEL
Southern District of Alabama
District of Alaska
District of Arizona
Eastern District of Arkansas
Western District of Arkansas
Eastern District of California
District of Connecticut
Southern District of Georgia
District of Hawaii
District of Idaho
Northern District of Illinois
Northern District of Indiana
District of Kansas
Eastern District of Kentucky
District of Maine
Eastern District of Michigan
District of Minnesota
Northern District of Mississippi
Western District of Missouri
District of Montana
District of Nebraska
District of Nevada
District of New Mexico
Eastern District of North Carolina
Western District of North Carolina
District of North Dakota
District of Northern Mariana Islands
Southern District of Ohio
Eastern District of Oklahoma
Northern District of Oklahoma
District of Oregon
District of Rhode Island
District of South Carolina
Eastern District of Tennessee
Middle District of Tennessee
District of Vermont
Southern District of West Virginia
Western District of Wisconsin
APPENDIX II
USAOS WITH CONTRACT GRAND JURY COURT
REPORTER PERSONNEL NEVER CLEARED
Northern District of California
District of Delaware
Middle District of Florida
Northern District of Florida
Central District of Illinois
Southern District of Illinois
Southern District of Indiana
Northern District of Iowa
Southern District of Iowa
Western District of Louisiana
District of Massachusetts
Western District of Michigan
District of New Hampshire
Eastern District of New York
Western District of New York
Northern District of Ohio
Middle District of Pennsylvania
District of South Dakota
Eastern District of Texas
Northern District of Texas
Southern District of Texas
Western District of Texas
District of Utah
District of Virgin Islands
Western District of Virginia
Eastern District of Washington
Western District of Washington
District of Wyoming
APPENDIX III
USAOS WITH EXPIRED CLEARANCES FOR CONTRACT
GRAND JURY COURT REPORTER PERSONNEL
Middle District of Alabama
Northern District of Alabama
Central District of California
Southern District of California
District of Colorado
District of Columbia
Middle District of Florida
Northern District of Florida
Southern District of Florida
Middle District of Georgia
Northern District of Georgia
District of Guam
Northern District of Iowa
Western District of Kentucky
Eastern District of Louisiana
Middle District of Louisiana
District of Massachusetts
Western District of Michigan
Southern District of Mississippi
Eastern District of Missouri
District of New Jersey
Eastern District of New York
Northern District of New York
Southern District of New York
Western District of New York
Middle District of North Carolina
Northern District of Ohio
Western District of Oklahoma
Eastern District of Pennsylvania
Western District of Pennsylvania
District of Puerto Rico
District of South Dakota
Western District of Tennessee
Northern District of Texas
Western District of Texas
District of Virgin Islands
Eastern District of Virginia
Northern District of West Virginia
Eastern District of Wisconsin
District of Wyoming
APPENDIX IV
ABBREVIATIONS
AOUSC Administrative Office of the United States Courts
AUSA Assistant United States Attorney
Department/DOJ Department of Justice
DSO Department Security Officer
EOUSA Executive Office for United States Attorneys
FBI Federal Bureau of Investigation
JMD Justice Management Division
PSS Procurement Services Staff
SEPS Security and Emergency Planning Staff
USAO United States Attorney's Office
APPENDIX VII
OFFICE OF THE INSPECTOR GENERAL'S ANALYSIS
OF MANAGEMENTS' RESPONSES
On April 1, 1996, the Inspections Division sent copies of the draft report to the
Executive Office for United States Attorneys and the Justice Management Division. We
subsequently met with EOUSA representatives to discuss several issues in the report. Based
on this meeting, we revised the draft report to reflect EOUSA's concerns. Our analyses of
the responses from the components follow.
EOUSA
EOUSA was concerned that we held the United States Attorneys accountable for an Order
that may not have been clear regarding clearance requirements for court reporter
personnel. In some cases, the United States Attorneys interpreted the Order literally and
did not include all personnel who handle grand jury material. The OIG interpreted the
Order to include all court reporter personnel who handle or have access to grand jury
information. Our interpretation was based on Rule 6(e) and conversations with EOUSA
representatives in which they concurred with our interpretation. In addition, our
interpretation was based on specific language which is part of the contract security
information distributed to the USAOs by the Procurement Services Staff of JMD. The
language states that staff members and regular employees having access to the work
performed are to be cleared.
The EOUSA's comments indicated that the Security Programs Staff found discrepancies
between the OIG report findings and the actual USAO practice of having court reporter
personnel cleared. EOUSA stated that its Security Programs Staff contacted each USAO to
verify the number of persons with clearance problems and stated that its results differed
from the OIG's. We believe these results differ because the OIG contacted the court
reporting firms to obtain lists of all court reporter personnel who handle grand jury
information. We compared this list of personnel to the SEPS contractor database and
reviewed the clearance dates of the court reporter personnel. We re-contacted the USAOs to
verify the information obtained from the court reporting firms and the database and then
re-contacted the court reporting firms to clarify any discrepancies in information.
Furthermore, we found that some USAOs contacted by the OIG had incomplete or inaccurate
records regarding clearances of court reporter personnel.
JMD
The JMD indicated during its exit briefing and in its written response that the
Department of Justice Order, 2600.4, Safeguarding Grand Jury Information, was being
considered for consolidation with three other orders. While there is the possibility that
the DOJ Order governing grand jury material may be eliminated, a proposed replacement
order has been in the review process for a year, and there is no definitive date for
cancellation of the existing order. In our
opinion, either the proposed order or the current order needs to be clarified to
provide guidance on personnel clearance requirements, access to grand jury material by
government employees, and physical security practices at the USAOs.
Recommendation Number:
1. Unresolved-Open. EOUSA's response indicated that the USAOs would only be
concerned with clearances for those persons who record and transcribe grand jury material.
However, we consider the recommendation unresolved because we disagree with requiring
clearances of only persons who record and transcribe. We maintain our position that all
court reporter personnel who have access to grand jury material be cleared.
2. Resolved-Open. We agree with the proposed corrective action. Please provide
us with documentation indicating that EOUSA has instructed the United States Attorneys to
maintain complete and accurate records.
3. Resolved-Open. We agree with the proposed corrective action. Please provide
us with documentation indicating that EOUSA has instructed the United States Attorneys to
conduct annual site visits and ensure that physical and information security requirements
are met.
4. Unresolved-Open. JMD's response did not specifically address the
recommendation. Please indicate whether policy guidance will be provided.
5. Unresolved-Open. JMD's response did not specifically address the
recommendation. Please indicate whether policy guidance will be provided.
6. Unresolved-Open. JMD's response did not specifically address the
recommendation. Please indicate whether policy guidance will be provided.
7. Resolved-Open. We agree with the proposed corrective action. Please provide
us with documentation indicating that EOUSA has instructed the United States Attorneys to
limit access to grand jury information.
8. Resolved-Open. We agree with the proposed corrective action. Please provide
us with documentation indicating that EOUSA has provided standardized guidelines regarding
storage and disposal practices for grand jury information in closed cases to the United
States Attorneys.
#####